'I r-- n

v.
No.

2t/3 52

Supreme Court U.S.
FILED

MAR 2 3 2021
OFFICE OF THE CLERK

Supreme Court of tlje fHmtefc ^>tates(
Alexander Christian Miles,
Petitioner,
v.
United States of America
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Tenth Circuit
Petition for a Writ of Certiorari
Alexander C. Miles, Esq.
Brahegatan 15
Stockholm, Sweden
acmilesesq@gmail.com

March 22, 2021

QUESTION PRESENTED
Whether oral pronouncements by the court or the
government at a plea colloquy which clarify the extent
of an appellate and collateral attack waiver in the
parties’ plea agreement can narrow the scope of the
waiver pursuant to contract law principles.

u

RELATED PROCEEDINGS
United States Court of Appeals for the Tenth
Circuit
United States v. Miles, No. 20-6150 (10th Cir. 2020),
Order and Judgment terminating the Petitioner’s
appeal by enforcement of the plea agreement’s
collateral attack waiver.
United States v. Miles, No. 18-6119, 923 F.3d 798 (10th
(2019). Opinion
Cir. 2019), cert, denied 589 U.S..
and Judgment affirming the District Court’s denial of
the Petitioner’s second petition for a writ of error
coram nobis by enforcement of the plea agreement’s
collateral attack waiver.
United States v. Miles, No. 13-6110, 553 Fed. Appx.
846 (10th Cir. 2014). Order and Judgment affirming
the District Court’s denial of the Petitioner’s first
petition for a writ of error coram nobis by enforcement
of the plea agreement’s collateral attack waiver.
United States v. Miles, No. 12-6011, 546 Fed. Appx.
730 (10th Cir. 2012) Order and Judgment denying the
Petitioner’s application for a certificate of appealabil­
ity by enforcement of the plea agreement’s collateral
attack waiver.
United States District Court for the Western
District of Oklahoma
United States u. Miles, Case No. 5:06-CR-096-HE-1
[Doc. #255](W.D.O.K. September 1, 2020). Order
denying the Petitioner’s third petition for a writ of
error coram nobis by enforcement of the plea
agreement’s collateral attack waiver.
United States v. Miles, Case No. 5:06-CR-096-HE-l
[Doc. #236](W.D.O.K. June 20, 2018), Order denying

m
the Petitioner’s second petition for a writ of error
coram nobis by enforcement of the plea agreement’s
collateral attack waiver.
United States v. Miles, Case No. 5:06-CR-096-HE-l
[Doc. #147](W.D.O.K. December 22, 2011). Order
denying the Petitioner’s initial habeas motion under
28 U.S.C. §2255 by enforcement of the plea
agreement’s collateral attack waiver.
Certiorari Petitions Presenting a Similar
Question
Haws v. Idaho, No. 20-1095, where the Question
Presented is:
Whether a criminal defendant’s purported
waiver of the right to appeal in a plea agree­
ment is knowing, intelligent, and voluntary as required by the Due Process Clauses of the
Fifth and Fourteenth Amendments — when
the trial court incorrectly informs the defen­
dant, during the colloquy in which the court
accepts the defendant’s guilty plea, that the
defendant has reserved the right to appeal.

IV

TABLE OF CONTENTS
Question Presented.

l

Table of Authorities

vi

Related Cases.........

n

Opinions Below......

1

Jurisdiction............

1

Constitutional and Statutory Provisions Involved.... 2
Statement of Facts and Procedural History

2

Reasons for Granting the Writ.....................

14

1. Whether oral pronouncements by the Court or
the government at a plea colloquy in accordance
with Rule 11 of the Federal Rules of Criminal
Procedure can narrow the scope of written
appellate and collateral attack waivers merits
14
Supreme Court review
2. This case represents an ideal vehicle for
resolving whether oral clarifications rendered at
plea colloquies can expand a defendant’s post­
19
conviction challenge rights
3. This petition is suitable for a summary
disposition since a different petition presenting an
almost identical question is currently pending
23
before this Court
Conclusion

24

Appendix

al

V

APPENDIX CONTENTS
Table of Contents

al

Appendix A,
United States v. Miles, No. 20-6150 (10th Cir.
a2
Dec. 2, 2020), Order and Judgment
Appendix B,
Constitutional and Statutory
Addendum........................................

alO

Appendix C,
Superceding Information................

al4

Appendix D,
Plea Agreement (excerpts)..............

al5

Appendix E,
Transcript of Plea of Guilty (Rule 11 Plea
al8
Colloquy)
Appendix F,
USCIS/uscis.gov: Summary of Process for the
a31
K-l Fiance/Fiancee program

VI

TABLE OF AUTHORITIES
Constitutional Provisions
U.S. Const., amend. V...........
U.S. Const., amend. VI *........

2, alO
2, alO

Statutes
1
28 U.S.C. §1254(1)
passim
28 U.S.C. §2255.....
The Antiterrorism and Effective Death Penalty Act
of 1996 (AEDPA), Pub. L. No. 104-132, 110 Stat.
12
1214
Rules
Fed.R.Crim.P. Rule 11..
Fed.R.Crim.P. Rule 7(e)

passim
passim

Regulations
8 C.F.R. §1003.1(g)
8C.F.R. §213a.2....
8 C.F.R. §103.10(b)

7
8
7

Agency Decisions
Matter of Agoudemos,
10 I.&N. Dec. 444 (BIA 1964).......
Matter of Balodis,
17 I.&N. Dec. 428 (BIA 1980).......
Matter of G-—,
9 I.&N. Dec. 89 (BIA 1960)...........
Matter of Manjoukis,
13 I.&N. Dec. 705 (Dist.Dir. 1971)

7,8
7
7,8
7

Vll

United States Supreme Court Cases
Class v. United States,
138 S.Ct. 798 (2018).............................
Garza v. Idaho,
139 S.Ct. 738 (2019).............................
Puckett v. United States,
556 U.S. 129 (2009)..............................

14
14
14

United States Court of Appeals Cases
Prost v. Anderson,
636 F.3d 578 (10th Cir. 2011)..................
Raulerson v. United States,
901 F.2d 1009 (11th Cir. 1990)................
United States v. Altro (In re Altro),
180 F.3d 372 (2nd Cir. 1999)...................
United States v. Ballis,
28 F.3d 1399 (5th Cir. 1994)...................
United States v. Bunner,
134 F.3d 1000 (10th Cir. 1998)...............
United States v. Chavez-Salais,
337 F.3d 1170 (10th Cir. 2003)...............
United States v. Farr,
536 F.3d 1174 (10th Cir. 2008)................
United States v. Frownfelter,
626 F.3d 549 (10* Cir. 2010).................
United States v. Gammill,
421 F.2d 185 (10th Cir. 1970).................
United States v. Garcia,
956 F.3d 41 (4* Cir. 1992).....................
United States v. Hahn,
359 F.3d 1315 (10* Cir. 2004)...............
United States v. Hardman,
778 F.3d 896 (11* Cir. 2014).................

12
18
17
17
21
15, 20, 21
22

21
9
18
15
14

vin
United States v. McIntosh,
580 F.3d 1222 (11* Cir. 2009)............................
United States v. Miles,
546 Fed. Appx. 730 (10* Cir. 2012)....................
United States v. Miles,
'
553 Fed. Appx. 846 (10th Cir. 2014)....................
United States v. Miles,
923 F.3d 798 (10th Cir. 2019), cert, denied, 589
U.S, (2019)...................................
United States v. Rockwell Inti, Corp.,
124 F.3d 1194 (10* Cir. 1997)
United States v. Wilken,

498 F.3d 1160 (10* Cir. 2007)

10
11
12
12
17

10, 12,16

Other Authorities
John H. Wigmore: A Brief History of the Parol
Evidence Rule, Columbia L.Rev. Vol. 4 No. 5 (May,
18
1904), pp. 338-355........................................
Tina M. Woehr: The Use of Parol Evidence in
Interpretation of Plea Agreements, Columbia L.Rev.
17
Vol. 110. No. 3 (April 2010), pp.840-884
Majority Staff Report of the Committee on Homeland
Security and Governmental Affairs, United States
Senate, Senator Ron Johnson, Chairman: How the
U.S. Immigration System Encourages Child
12
Marriages (January 11, 2019)

1
PETITION FOR A WRIT OF CERTIORARI
The Petitioner, Dr. Alexander C. Miles, respect­
fully petitions this Court for a writ of certiorari to re­
view the judgment of the United States Court of Ap­
peals for the Tenth Circuit. The petition seeks review
of whether and to what extent parol evidence in the
form of oral pronouncements by the court or the
government at a plea colloquy have the power to nar­
row the scope of an appellate and collateral attack
waiver contained in an integrated plea agreement.
OPINIONS BELOW
The Tenth Circuit’s unpublished order denying
Dr. Miles’ third petition for a writ of error coram nobis
based on enforcement of the waiver provision in the
parties’ plea agreement is reported as United States
v. Miles, No. 20-6150 (10th Cir. 2020), and reproduced
in Appendix A. The three preceding Tenth Circuit or­
ders denying Dr. Miles’ application for a certificate of
appealability and first and second coram nobis
petitions, likewise by enforcement of the waiver, are
reported as United States v. Miles, 546 Fed. Appx. 730
(10th Cir. 2012), United States v. Miles, 553 Fed. Appx.
846 (10th Cir. 2014), and United States v. Miles, 923
F.3d 798 (10th Cir. 2019), cert, denied 589
U.S. .(2019).
JURISDICTION
The Tenth Circuit rendered its judgment and
order on December 2, 2021. This Court has jurisdic­
tion under 28 U.S.C. §1254(1). On March 19, 2020,
the Supreme Court extended the deadline for certio-

2

rari petitions to 150 days after the lower court judg­
ment. The filing deadline for the instant case is there­
fore May 2, 2021.
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
This case involves U.S. Const., amend. V and VI,
Fed.R.Crim.P. Rule 7(e) and Rule 11, and 28 U.S.C.
§2255 (h). These provisions are reproduced in the Con­
stitutional and Statutory Addendum in Appendix B.
STATEMENT OF FACTS AND PROCEDURAL
HISTORY
After two unsuccessful attempts to convict Dr.
Miles under the Mann Act for crossing state lines with
an intent to engage in marital relations with his minor
alien wife when relocating from New York to Okla­
homa,1 the United States Attorney for the Western
District of Oklahoma2 offered him a guilty plea to a
one count violation of 18 U.S.C. §1001(a)(3). This time
around his crime supposedly consisted of having mis­
represented his wife’s age in an INS form Affidavit of
Support, in support of her application for a K-l visa,
in accordance with the particulars contained in a
Superceding Information, dated June 19, 2009, and a
Plea Agreement, executed June 24, 2009.
At the ensuing June 24, 2009 Fed.R.Crim.P. Rule
11 Plea Colloquy, the government (as directed by the
District Court) stipulated to the factual basis for Dr.
Miles’ offense, and clarified the extent of the Plea
1.This appears to be the first time in the history of American ju­
risprudence that a husband has been prosecuted under the Mann
Act for intending to engage in sexual relations with his wife
within the context of a valid state law marriage.
2. Hereinafter “the government.”

3

Agreement’s limited appellate waiver provision. Fol­
lowing the Plea Colloquy, the District Court accepted
the guilty plea and found him guilty as charged.3
On September 24, 2009, the District Court sen­
tenced Dr. Miles to 60 months of imprisonment4 to
account for the 4 years he had been locked up in jail
without bond prior to trial, thereby varying upward
from the 0-6 month sentencing guideline range
otherwise applicable to the offense.
The ‘Superceding Information,’5 charged that Dr.
Miles’ offense consisted of “[i]n or about February of
2002” falsely stating to the INS, “on an affidavit in
support of an application for a Kl Visa,” that his
wife “was 18 years of age when he knew she was under
18 years of age.“
The Plea Agreement further specified that the
making or using of “a false Affidavit of Support for
an Alien Fiance Visa application” which contained
“a materially false and fictitious statement k ie ie that
the age of [Dr. Miles’ wife] was eighteen”6 constituted
the factual basis for the guilty plea.
The Plea Agreement was fully integrated pursu­
ant to a Merger /Integration Cause’ according to which
any additional agreement or modification would be re­
jected unless in writing and ratified by both parties:
3. Transcript of Plea of Guilty (hereinafter “Rule 11 Plea Collo­
quy”), Case No. 06-CR-096-HE [Doc. #90], p.16.11.18-23. Appx. E,
a30.
4. Fed.R.Crim.P. Rule 7(e), prohibits any amendment of an infor­
mation after a defendant has been sentenced, no matter how non­
prejudicial or trivial.
5. Superseding Information, Case No. 06-CR-096-HE [Doc. #63],
Appx C, al4. [Emphasis added],
6. Plea Agreement, Case No. 06-CR-096-HE [Doc. #68], par. 2,
Appx. D, al5 [Emphasis added].

4
This document contains the entire plea agree­
ment between defendant, Alexander C. Miles,
and the United States through its under­
signed attorney. No other agreement or pro­
mise exists, nor may any additional agree­
ment be entered into unless in writing and
signed by all parties. Any unilateral modifi­
cation of this agreement is hereby
rejected by the United States. This
agreement applies only to the criminal
violations described * * *7
The Plea Agreement waived the 5-year statute of
limitations, and proper venue for the February 2002
false statement offense perpetrated in the Southern
District of New York:
The defendant waives any claim that venue is
not proper in the Western District of Okla­
homa. Defendant also waives all defenses
based on the statute of limitation with re­
spect to Count 1 of the Information refer­
enced in paragraph 2 of this agreement.8
Paragraph 8(b) of the parties’ Plea Agreement
contained a limited appellate waiver, whereby Dr.
Miles obligated himself not to:
Appeal, collaterally challenge, or move to
modify * * * his sentence as imposed by the
Court and the manner in which the sentence
is determined, provided the sentence is
within or below the advisory guideline

7. Plea Agreement, par. 1, Appx D, al5 [Emphasis added].
8. Plea Agreement, par. 12, Appx D, a 16 [Emphasis added].

5
range determined by the Court to apply
to this case.9
At the Rule 11 Plea Colloquy, the government
stipulated to the factual basis for Dr. Miles’ guilty
plea:
THE COURT: All right. Mr. Sengel, if you
would, please, question the defendant to
determine whether there's a factual ba­
sis for the plea.
MR. SENGEL: Yes, your Honor. In or
about February of 2002, in New York, did
you make a false affidavit in support of
an application for a K-l visa by SK?
THE DEFENDANT: Yes, I did.
MR. SENGEL: Did you know at the time
you made the affidavit that it falsely
stated SK was 18 years of age when you
knew she was under 18 years of age?
THE DEFENDANT: Yes.
MR. SENGEL: Did you make the affidavit
voluntarily and intentionally?
THE DEFENDANT: Yes.
MR. SENGEL: And do you admit that the
affidavit was material to the Immigra­
tion and Naturalization Service in that it
was capable of influencing a decision of
the Service?
THE DEFENDANT: Yes.
MR. SENGEL: And do you admit that the Im­
migration and Naturalization Service is
part of the executive branch of the United
States government?
9. Plea Agreement, par. 8(b), Appx. D, a!6 [Emphasis added].

6

THE DEFENDANT: I do.
MR. SENGEL: I have no further questions,
your Honor.
THE COURT: I think that sufficiently
makes out the factual basis for the of­
fense.
* * *

THE COURT: Well, the bottom line, Dr.
Miles, is did you in fact do what you're
charged with in this superseding infor­
mation?
THE DEFENDANT: Yes, sir.™
At the Rule 11 Plea Colloquy, the government,
under the direction of the District Court, further
clarified the extent of the Plea Agreement’s collateral
attack waiver and the waivers of venue and the
statute of limitations:
THE COURT: 1 understand there is a plea
agreement with the government in this case.
Mr. Sengel, if you would, please, describe
for the record the principal terms of that
plea agreement, please.
MR. SENGEL: Yes, your Honor. Pursuant to
the plea agreement, the defendant agrees to
enter a plea of guilty to the superseding infor­
mation charging a violation of Title 18 United
States Code, Section 1001(a)(3).
Further, he has agreed to waive any claim
that venue as to that offense is improper in the
Western District of Oklahoma, and further

10. Rule 11 Plea Colloquy, p.13-14, Appx. E, a28-29 [Emphasis
added].

7

waive any defense based on the statute of limi­
tations.
The defeiidant has also agreed to waive
his right to appeal or collaterally chal­
lenge the conviction and the sentence
imposed by the court provided the court
does not impose a sentence above the ad­
visory guideline range determined to ap­
ply 11
In February 2011, while on supervised release,
Dr. Miles sought relief under 28 U.S.C. §2255. He con­
tended that he had pleaded guilty to non-criminalized
conduct, because the age of his spouse was immaterial
under 18 U.S.C. §1001(a)(3) since controlling Board of
Immigration Appeals (BIA) precedent12 expressly re­
cognizes the validity of voidable state law marriages
to minors for purposes of adjustment of status from
K-l fiancee to conditional lawful permanent resident
11. Rule 11 Plea Colloquy, p.ll, 11. 3-18, Appx E, a26 [Emphasis
added],
12. Matter ofG-—, 91.&N. Dec. 89 (BIA 1960)(Voidable state law
marriages of minors are recognized as valid for purposes of ad­
justment of K-l visa status); Matter of Agoudemos, 101.&N. Dec.
444 (BIA 1964)(same). See also Matter of Manjoukis, 13 I.&N.
Dec. 705 (Dist.Dir. 1971) (Minor parties are eligible for a K-l visa
as long as state statutory law does not expressly render their in­
tended marriage absolutely void); Matter of Balodis, 17 I.&N.
Dec. 428 (BIA 1980)(Even if an intended marriage would be void
under state statutory law, a party will nevertheless qualify for a
K-l visa as long as annotated state case law would recognize the
intended marriage as voidable); 8 C.F.R. §1003.1(g) &
§103.10(b)(“Decisions of the Board of Immigration Appeals, and
decisions of the Attorney General, shall be binding on all officers
and employees of the Department of Homeland Security or im­
migration judges in the administration of the immigration laws
of the United States”).

8

(CLPR): The government’s original charges correctly
reflected that the INS only requires one Affidavit of
Support in conjunction with a K-l visa application
which is to be executed by the U.S. petitioner when
the alien beneficiary seeks adjustment of status to
CLPR following the parties’ U.S. marriage. However,
some Consular Visa Issuing Posts (which are part of
the Department of State, and not the INS) in Third
World countries, such as Cambodia, require an addi­
tional 1-134 Affidavit of Support when the alien bene­
ficiary applies for the actual K-l visa itself.
However, unbeknownst to the government, there
exists no minimum age for alien beneficiaries of either
1-864 or 1-134 Affidavits under 8 C.F.R. §213a.2 It is
only the U.S. citizen sponsor of an Affidavit of Support
who must be 18 years or older. 8 C.F.R.
§213a.2(c)(l)(i)(A).
Due to its ignorance of immigration regulations
governing Affidavits of Support, the government, in
order to avoid the impact of Matter of G-—, and Matter
of Agoudemos, claimed that Dr. Miles’ §2255 petition
had caused it to belatedly realize that it had made an
inadvertent charging error. Thus, while the govern­
ment originally had charged Dr. Miles with lying
about his wife’s age in the 1-864 Affidavit of Support
to the INS on February 17, 2002, it two years later, in
2011, realized that it had meant the 1-134 Affidavit of
Support in support of the actual K-l visa application
itself, mistakenly assumed to have been in filed with
the INS in July 2001. However, the 1-134 Affidavit of
Support had in fact been submitted to the consulate of

9
the U.S. Embassy to Cambodia in Phnom Penh, in No­
vember 2001, as required under U.S. immigration
laws and agency pohcy.13
Equally clueless about U.S. immigration laws and
procedure, the District Court, when amending the
date of the offense from February 2002 to July 200114
(at the behest of the government), adopted the govern­
ment’s mistaken assumptions about the time, place
and agency of the Executive Branch to which the 1-134
Affidavit had been submitted. The District Court thus
found that the date of Dr. Miles’ offense was
undisputed, and that the post-conviction amendment
of the original charges, at most, resulted in a “non­
prejudicial” “variance,” which merely prevented Dr.
Miles from capitalizing on an “inconsequential
mistake” without impacting his “substantial
rights.”1516 The District Court further discounted Dr.
13. See United States Citizenship and Immigration Services
(USCIS): Summary of Process for the K-l Fiance/Fiancee pro­
gram, par. 2, Appx. F, a33. Moreover, under agency policy it is
the alien fiancee herself who must file the DS-156K (now DS-160)
’’Nonimmigrant Fiance Visa Application” at the U.S. embassy
abroad, and appear in person before consular officers to swear
under oath that the factual averments contained in her K-l visa
application are true.
14. The District Court disregarded Dr. Miles’ timely objections
that Fed.R.Crim.P. Rule 7(e) and the Sixth Amendment prohibi­
ted any amendments of the original charges after his September
2009 sentencing.
15. Order, Case No. 5:06-CR-096-HE-l (Doc. #147](W.D.O.K. De­
cember 22, 2011) p. 6.
16. The date of Dr. Miles’ offense was in fact of the essence under
Tenth Circuit precedent, because the statute of limitations had
expired for both his original offense, charged in June 2009, and
his new offense, charged post hoc by the District Court’ amend­
ment of the original charges in December 2011. See United
States v. Gammill, 421 F.2d 185, 186 (10th Cir. 1970). See also

10
Miles’ statute of limitations objections: “The defen­
dant waived the statute of limitations with respect to
the charge that he made a false statement concerning
S.K’s age on the affidavit submitted in support of
a Kl fiancee visa. He did not waive the commission
of the offense restricted to a particular date.”17 Ulti­
mately, the District Court’s disposition rested on en­
forcement of the Plea Agreement’s collateral attack
waiver, since no “miscarriage of justice” would ensue
because Dr, Miles was not factually innocent of the
new charges levied by its post hoc amendment of the
government’s original charges.18
At the time, however, none of the parties were
aware that the Plea Agreement’s limited waiver pro­
vision, as clarified by the government at the Rule 11
Plea Colloquy, appeared to entitle Dr. Miles to chal­
lenge both his conviction and his sentence, because
the District Court had varied upward from the appli­
cable guideline range. See United States v. Wilken,
498 F.3d 1160,1168 (10th Cir. 2007)(oral clarifications
of the particulars of a defendant’s appellate waiver at
a Rule 11 plea colloquy by the court, or the govern­
ment acting under the direction of the court, super­
sede ambiguous written provisions of plea agree­
ments if they render the guilty plea involuntary and
unintelligent).
The Tenth Circuit, in December 2012, denied Dr.
Miles’ application for a certificate of appealability by
affirming the District Court’s enforcement of the Plea
United States v. McIntosh, 580 F.3d 1222, 1228 (11th Cir.
2009)(the date of an offense is an essential element of the offense
if the offense occurred outside the statute of limitations).
17. Order, p. 6. [Emphasis added].
18. Order, pp.7 & 9.

11
Agreement’s collateral attack waiver. United States v.
Miles, 546 Fed. Appx. 730, 732-34 (10th Cir. 2012). The
circuit panel acknowledged that the government
mistakenly had conflated the K-l visa application
with the application for adjustment of status when
drafting the charging terms of the Superseding
Information and the Plea Agreement. Id, at 731-32. It
further conceded that Dr. Miles could not have been
held criminally culpable under the original, albeit
unilaterally mistaken charges, to which he had
pleaded guilty and been convicted of, since agency
precedent recognizes voidable marriages to minors for
purposes of adjustment of status to CLPR. Id. at 732.
But, since Dr. Miles apparently had misrepresented
wife’s age in two different Affidavits of Support to fur­
ther her efforts to attain CLPR status, the panel con­
tended that the District Court should be at liberty to
pick and choose which Affidavit of Support he had lied
in, even several years after his conviction, and even
after he had served out his prison sentence. Id. at 73132. Nevertheless, the panel expressed reservations
about the District Court’s amendment of the date of
the offense by 7 months (from February 2002 to July
of 2001), as it considerably exceeded any temporal
amendments heretofore deemed permissible under
Tenth Circuit precedent. Id. at 733. The panel further
expressly found that the Plea Agreement’s waiver of
the statute of limitations only pertained to Dr. Miles’
false statement made in February 2002, and therefore
failed to encompass any earlier false statements in
2001. Id. at 733. Despite these concerns, the panel
ruled that the Plea Agreement’s waiver provision ob­
viated the need for further consideration of the other­
wise prohibited amendment of the date of the offense

12
and the bar otherwise imposed by the expiration of the
5-year statute of limitations. Id. at 733.
Dr. Miles’ first coram nobis petition was denied by
the Tenth Circuit for the same reasons as his applica­
tion for a certificate of appealability, by affirmance of
the District Court’s enforcement of the Plea
Agreement’s waiver provision. United States v. Miles,
553 Fed. Appx. 846, 848 (10th Cir. 2014).
When Dr. Miles in his second coram nobis petition
informed the Tenth Circuit that its own precedent19
appeared to invalidate the Plea Agreement’s waiver
provision because his sentence exceeded the applica­
ble guideline range, it nevertheless again enforced the
waiver to deny relief. See United States v. Miles, 923
F.3d 798 (10th Cir. 2019), cert, denied, 589
U.S.__ (2019). In so doing, the Circuit panel, relying
on Prost v. Anderson, 636 F.3d 578 (10th Cir. 2011),
extended the AEDPA’s restrictions on successive ha­
beas petitions under 28 U.S.C §2255(h) of the
AEDPA20 to include former defendants at liberty seek­
ing relief under the All Writ’s Act.21 Id. at 585.
On March 26, 2020, Dr. Miles filed a third petition
for coram nobis petition relief based on new evidence
contained in a January 11, 2019 U.S. Senate Report
titled ‘How the U.S. Immigration System Encourages
Child Marriages’22 The Report revealed that the long
standing policy of the State Department and INS has
been to issue spousal and K-l visas to minor alien
19. Wilken, 498 F.3d at 1168, supra.
20. The Antiterrorism and Effective Death Penalty Act of 1996,
Pub. L. No. 104-132, 110 Stat. 1214.
21. 28 U.S.C. §1651.
22. Majority Staff Report of the Committee on Homeland
Security and Governmental Affairs, United States Senate,
Senator Ron Johnson, Chairman.

13
beneficiaries without requiring advance proof of either
parental consent or judicial permission, even if re­
quired to issue a marriage license in the state where
the parties intended to marry. Furthermore, the Re­
port reaffirmed that it is only the U.S. sponsor of an
Affidavit of Support who must be 18 or older, and that
no minimum age exists for alien beneficiaries. There­
fore, as long as the parties’ intended marriage does not
violate the laws of the state where they intend to
marry, or the public policy of the state where they in­
tend to reside, a minor alien will be issued a K-l visa.
Given this new evidence of previously non-transparent INS and State Department policies, Dr. Miles
contended that his misrepresentation of his wife’s age
in an Affidavit of Support in support of her K-l visa
application was immaterial under 18 U.S.C. §1001,
and that his successive petition for relief therefore
was authorized under 28 U.S.C. §2255 (h)(1) of the
AEDPA because this new evidence established by
clear and convincing evidence that no reasonable fact­
finder could have found him guilty of the govern­
ment’s charges, even as amended post hoc.
On September 1, 2020, the District Court denied
the petition. Dr. Miles filed a timely appeal which was
again denied by the Tenth Circuit on December 2,
2020 by enforcement of the plea agreement’s waiver
provision. The appellate panel found that the waiver’s
language only permitted a collateral challenge of the
sentence, and not the underlying conviction, thereby
disregarding the government’s oral pronouncements
at the Fed.R.Crim.P. Rule 11 plea colloquy which ex­
pressly granted Dr. Miles permission to collaterally
challenge both his conviction and sentence in the
event of an upward variance.

14
Due to the foregoing, the Petitioner now seeks a
writ of certiorari to address the lack of uniformity and
circuit split with respect to the ability of parol evi­
dence, and specifically oral pronouncements rendered
at plea colloquies, to narrow the scope of written ap­
pellate and collateral attack waivers.
REASONS FOR GRANTING THE WRIT
1. Whether oral pronouncements by the court
or the government at a plea colloquy in ac­
cordance with Rule 11 of the Federal Rules
of Criminal procedure can narrow the scope
of written appellate and collateral attack
waivers merits Supreme Court review.
In Garza v. Idaho, this Court recognized that “[a]s
courts widely agree, "[a] valid and enforceable appeal
waiver . . . only precludes challenges that fall within
its scope."“ Id. 139 S.Ct. 738, 744 (2019), quoting
United States v. Hardman, 778 F.3d 896, 899 (11th Cir.
2014). “That an appeal waiver does not bar claims out­
side its scope follows from the fact that, "[although
the analogy may not hold in all respects, plea bargains
are essentially contracts." Garza at 744, quoting Puck­
ett v. United States, 556 U.S. 129, 137 (2009). As with
any type of contract, the language of appeal waivers
can vary widely, with some waiver clauses leaving
many types of claims unwaived. Garza at 744. Fur­
thermore, in Class v. United States, 138 S.Ct. 798, 804
(2018), this Court reconfirmed that a guilty plea, in
the absence of a valid, express waiver contained in the
plea agreement, does not bar a post-conviction chal­
lenge based on that the facts alleged and admitted by
a defendant in conjunction with his guilty plea fail to
state an offense, as in the instant case.

15
Circuit courts generally interpret ambiguities re­
garding the terms of a plea agreement contra
proferentem, against the government and in favor of
defendants. See e.g. United States v. Hahn, 359 F.3d
1315, at 1325 (10th Cir. 2004)(“In determining a
waiver’s scope, we will strictly construe [appeal waiv­
ers] and any ambiguities . . . will be read against the
Government and in favor of a defendant’s appellate
rights”). Moreover, all federal circuits, similar to
Hahn, consider “(1) whether the disputed appeal falls
within the scope of the waiver of appellate rights; (2)
whether the defendant knowingly and voluntarily
waived his appellate rights; and (3) whether enforcing
the waiver would result in a miscarriage of justice.”
Id. at 1325. These three grounds for overcoming wai­
vers are interdependent since the terms of a plea
agreement are interpreted according to contract prin­
ciples and what a defendant reasonably understood
when he entered his plea. United States v. ChavezSalais, 337 F.3d 1170, 1172 (10* Cir. 2003). Thus,
Federal courts seemingly recognize that a defendant’s
reasonable understanding of oral pronouncements
rendered at his plea colloquy may modify or even
narrow written waiver provisions in the parties’ plea
agreement, absent express language to the contrary,
especially since any ambiguities are interpreted
contra proferentem and in favor of a defendant’s
appellate rights. See id. at 1173. This blurs the
distinction between whether a defendant’s reasonable
understanding of oral statements rendered at his plea
colloquy narrows the scope of waiver provisions as a
matter of contract law, and whether such statements
render his guilty plea unknowing and involuntary and
therefore constitutionally invalid. However, to date,

16
cases which have addressed the impact of oral pro­
nouncements at plea colloquies have focused exclu­
sively on whether the pronouncements have created
an ambiguity about the extent of the waiver rendering
the guilty plea unknowing and involuntary. No cases
have addressed whether oral pronouncements at a
plea colloquy, considered together with the plea agree­
ment’s written terms, as understood by a reasonable
defendant, and interpreted under principles of con­
tract law, have narrowed the scope of waiver provi­
sions. See e.g. Wilken, 498 F.3d at 1168:23
[l]ogic indicates that if we may rely on the sen­
tencing court's statements to eliminate ambi­
guity prior to accepting a waiver of appellate
rights, we must also be prepared to recognize
the power of such statements to achieve the
opposite effect. If it is reasonable to rely upon
the court's words for clarification, then we
cannot expect a defendant to distinguish and
disregard those statements of the court that
deviate from the language of a particular pro­
vision in a lengthy plea agreement * * *
Ostensibly this is because the sentences imposed
in those cases have remained within the guideline
range contemplated by the parties’ plea agreements,
unlike here, thereby failing to trigger an outright
contractual entitlement to pursue a post-conviction
challenge. Little incentive has therefore existed to
23. See also Haws v. Idaho, No. 20-1095, currently pending before
this Court, which presents the question whether patently erro­
neous statements by the trial court at a plea colloquy which con­
tradict the express terms of the waiver provision in the parties’
plea agreement nevertheless will render the defendant’s guilty
plea unknowing, unintelligent and involuntary.

17
consider whether, in the absence of express language
to the contrary, a written waiver provision which
permits a defendant to appeal or collaterally challenge
his sentence also allows him to challenge the underly­
ing conviction, based on oral pronouncements
rendered at his plea colloquy.
Moreover, although oral pronouncements pursu­
ant to Fed.R.Crim.P. Rule 11 merit deference, they
nevertheless run afoul of the parol evidence rule if
they vary or contradict the written terms of the
parties’ plea agreement. The federal circuit courts
lack a consensus regarding the proper role of the parol
evidence rule and extrinsic evidence in the interpreta­
tion of plea agreement terms, referred to by one legal
scholar as a ‘doctrinal mess.24 The Second, Fifth, Sixth
and Tenth Circuits (representing the majority view)
decline to admit extrinsic evidence when a plea
agreement contains an integration clause, as here.25
Other circuits adopt an ‘overreaching approach’
holding the government responsible for ambiguous
drafting under the contra proferentem rule, especially

24. See Tina M. Woehr: The Use of Parol Evidence in Interpreta­
tion of Plea Agreements, Columbia L.Rev. Vol. 110. No. 3 (April
2010), pp.840-884.
25. See United States v. Ballis, 28 F.3d 1399, 1410 (5th Cir.
1994)(parol evidence is inadmissible to prove the meaning of an
unambiguous plea agreement); United States v. Rockwell Inti
Corp., 124 F.3d 1194, 1196 (10th Cir. 1997)(parol evidence is in­
admissible as evidence of an additional term modifying a com­
pletely integrated plea agreement); United States v. Altro (In re
Altro), 180 F.3d 372, 376 (2nd Cir. 1999)(when the government
incorporates an integration clause in the plea agreement, a de­
fendant may not rely on a purported implicit understanding to
demonstrate that the government is in breach).

18
when there is evidence of government overreaching
and foul play.26
However, congressional intent behind Rule 11 of
the Federal Rules of Criminal Procedure appears to
have been to integrate oral statements by the govern­
ment and sentencing court with the written terms of
the parties’ plea agreement: Under Fed.R.Crim.P
ll(b)(l)(N) the court must explain “the terms of any
plea-agreement provision waiving the right to appeal
or to collaterally attack the sentence,” and under
§ 11(b)(3) “[b]efore entering judgment on a guilty plea,
the court must determine that there is a factual basis
for the plea.” Furthermore, the evidentiary concerns
related to admission of extrinsic evidence, which are
the raison d'etre for the parol evidence rule,27 appear
to be absent when it comes to plea colloquies under
Rule 11 since, pursuant to §ll(g), “[t]he proceedings
during which the defendant enters a plea must be
recorded by a court reporter or by a suitable recording
device.” Consequently, the parol evidence rule should
not preclude claims that oral statements by the court
or government have narrowed the scope of a written
waiver provision absent express language to the con­
trary contained in the parties’ plea agreement.
26. See United, States v. Garcia, 956 F.3d 41, 44 (4th Cir.
1992)(“Both constitutional and supervisory concerns require
holding the Government to a greater degree of responsibility
than the defendant ... for imprecisions or ambiguities in plea
agreements); Raulerson v. United States, 901 F.2d 1009, 1012
(11th Cir. 1990)(Only where the language of the agreement is am­
biguous or where government overreaching is alleged can the
court consider parol evidence, such as the plea hearing tran­
script).
27. See John H. Wigmore: A Brief History of the Parol Evidence
Rule, Columbia L.Rev. Vol. 4 No. 5 (May, 1904), pp. 338-355.

19
2. This case represents an ideal vehicle for re­
solving whether oral clarifications rendered
at plea colloquies can expand a defendant’s
post-conviction challenge rights*
This case is ideal for addressing whether oral pro­
nouncements by the sentencing court or the govern­
ment have the power to modify the scope of waiver
provisions in plea agreements since (1) it is uncon­
tested that the District Court’s upward variance en­
titled the Petitioner to collaterally attack his
sentence; (2) nothing in the parties’ plea agreement
expressly prohibits a collateral challenge of the under­
lying conviction, in the event of an upward variance;
and (3) the government, acting under the direction of
the District Court, expressly granted the Petitioner a
right to challenge both his conviction and his sentence
in the event of an upward variance at the Rule 11 plea
colloquy, as further detailed below.
Paragraph 8 of parties’ plea agreement contains a
boilerplate waiver provision pursuant to which Dr.
Miles agreed not to:
a. Appeal or collaterally challenge his guilty
plea, sentence and restitution imposed, and
any other aspect of his conviction, including
but not limited to any rulings on pretrial sup­
pression motions or any other pretrial disposi­
tions of motions and issues;
b. Appeal, collaterally challenge, or move to
modify under 18 U.S.C. § 3582(c)(2) or some
other ground, his sentence as imposed by the
Court and the manner in which the sentence
is determined, provided the sentence is within

■\

1
20
or below the advisory guideline range deter­
mined by the Court to apply to this case. * *
*28

While the waiver precludes a challenge of the
guilty plea, sentence, restitution and “any other aspect
of [the] conviction” it does not expressly bar a chal­
lenge of the underlying conviction itself. If a [plea]
agreement expressly states that a defendant is waiv­
ing a particular right, a court will hold him to that
waiver. See Chavez-Salais, 337 F.3d at 1173. How­
ever, here, the parties’ plea agreement contains no
such explicit waiver of the right to challenge the con­
viction itself, and therefore does not reach Dr. Miles’
petition for coram nobis relief, See id. at 1173.
Moreover, at the Rule 11 Plea Colloquy, the govern­
ment, under the direction of the District Court and
pursuant to Fed.R.Crim.P. ll(b)(l)N) clarified the ex­
tent of the waiver provision:
The defendant has also agreed to waive his
right to appeal or collaterally challenge the
conviction and the sentence imposed by the
court provided the court does not impose a
sentence above the advisory guideline range
determined to apply.29
Any ambiguity caused by these oral clarifications
must be interpreted contra proferentem, and in favor
of Dr. Miles’ rights to collaterally challenge both his
conviction and his sentence. See Hahn, at 1325, supra.
Furthermore, while the language of 18 U.S.C.
§3742 (providing federal defendants a statutory right
to appeal) only refers to the right to appeal a sentence,
28. Plea Agreement, Appx. D, al6.
29. Rule 11 Plea Colloquy, Appx. E, a26.

21
it also grants defendants authority to challenge the
underlying conviction. The language of 28 U.S.C.
U.S.C. §2255 likewise only refers to the right of im­
prisoned defendants to collaterally challenge their
sentences, but nevertheless also allows them to con­
test their convictions. Additionally, a prerequisite for
coram nobis relief is that a defendant must fully have
served out his sentence in order to challenge either his
sentence or his conviction.30 Thus, under the plain
meaning rule of contract interpretation, a provision
that grants a defendant a right to challenge his sen­
tence, absent express language to the contrary, as
here, also implicitly appears to allow him to contest
the underlying conviction, even without taking into
account oral pronouncements rendered at the plea col­
loquy. This seems logically consistent with that a con­
viction constitutes an obligatory condition precedent
for the imposition of a sentence, and that, given the
wide discretion accorded the federal judiciary in the
sentencing realm, defendants generally prefer to at­
tack both the validity of their conviction and their sen­
tence. In addition, here, nothing in the language of
Plea Agreement suggests that a felony conviction con­
stitutes an essential provision of the Plea Agreement
of fundamental importance to the government "so
completely the basis of the contract that, as both par­
ties understand, without it the transaction would
make little sense." See United States v. Frownfelter,
626 F.3d 549, 555 (10th Cir. 2010), quoting United
States v. Bunner, 134 F.3d 1000, at 1004 (10th Cir.
30.“The conventional understanding of “collateral attack” com­
prises challenges brough under, for example, 28 U.S.C. §2241, 28
U.S.C. §2254, §28 U.S.C. §2255, as well as writs of coram nobis.”
Chavez-Salais, 337 F.3d at 1172.

22
1998). If the government considered a felony convic­
tion material it should have exercised greater care in
drafting the Superseding Information and Plea Agree­
ment. See Frownfelter, at 555.
As stated above, here, nothing in the Plea Agree­
ment’s waiver provision expressly prohibits a chal­
lenge of the underlying conviction. Consequently, the
government’s clarification of the scope of the waiver at
the Rule 11 Colloquy entitling Dr. Miles to challenge
both his conviction and his sentence does not trans­
gress the parol evidence rule, as it does not contravene
the written terms of the plea agreement, which at
most are silent about to the right to challenge the un­
derlying conviction.
In addition, the government’s 2011 post hoc
amendment of the charging terms, more than two
years after Dr. Miles’ 2009 conviction, causing them to
allege a completely different offense, perpetrated
seven months earlier, automatically renders Dr.
Miles’ guilty plea unintelligent and involuntary. This
breaches and voids the plea agreement altogether
(even under plain error review) since the amendment
violates not only the Due Process Clause and the Sixth
Amendment’s right to notice, but also the Plea
Agreement’s integration clause and Fed.R.Crim.P.
Rule 7(e). Furthermore, even as amended, the
government’s charging terms continue to fail to state
an offense since there exists no minimum age for alien
beneficiaries of Affidavits of Support.31 Enforcement

31. “The language employed by the government in its
indictments becomes an essential and delimiting part of the
charge itself, such that if an indictment charges particulars, the
jury instructions and evidence introduced at trial must comport

23

of the waiver would therefore also cause a miscarriage
of justice, warranting sua sponte review by a court of
higher instance. Consequently, a defendant who,
under the circumstances present here, claims that his
petition for relief falls outside the scope of the waiver
provision in his plea agreement, ought not to forfeit
inextricably interrelated claims that his guilty plea
was unintelligent and involuntary, or that
enforcement of the waiver would result in a mis­
carriage of justice, merely because he omitted arguing
these grounds for overcoming the waiver separately in
the court below.
3. This petition is suitable for a summary dis­
position since a different petition presenting
an almost identical question is currently
pending before this Court.
The question presented in Haws v. Idaho, No. 201095, a certiorari petition currently pending before
this Court, is virtually identical to the question pre­
sented here. However, Haws focuses exclusively on
whether oral statements by a trial court at a plea col­
loquy, even if patently erroneous, can render a guilty
plea constitutionally invalid due to being unknowing
and unintelligent. The Petitioner here, in contrast,
seeks review of whether oral pronouncements at a
plea colloquy, as reasonably understood by a defen­
dant, have the power to narrow the scope of plea waiv­
ers purely as a matter of contract law, regardless of
whether his guilty plea was unknowing and unintelli­
gent. Both these grounds for overcoming a waiver pro­
vision are inextricably interrelated since the failure
with those particulars." United States v. Farr, 536 F.3d 1174,
1181 (10th Cir. 2008).

24
by the government to abide by the written terms of a
plea agreement, and refusal to honor its oral promises
rendered at a plea colloquy violates due process to the
same extent as in Haws. Therefore, Haws and this
petition should be consolidated as companion cases to
enable this Court to address the interrelated issues
presented by these petitions in one, single opinion.
The instant petition should therefore be held in
abeyance until briefing and oral arguments have been
completed in Haws.
CONCLUSION
A writ of certiorari should be granted to establish
whether oral pronouncements at a plea colloquy, as
interpreted pursuant to contract law principles, have
the power to narrow the scope of a written waiver
provision in the parties’ plea agreement.
Respectfully submitted,
Alexander C. Miles, Esq*
Is/ Alexander C. Miles
Brahegatan 15
Stockholm, Sweden
acmilesesq@gmail.com
*Not admitted to the Supreme Court bar.

al
APPENDIX
TABLE OF CONTENTS
Table of Contents

al

Appendix A,
United States v. Miles, No. 20-6150 (10th Cir.
a2
Dec. 2, 2020), Order and Judgment
Appendix B,
Constitutional and Statutory
Addendum........................................

alO

Appendix C,
Superceding Information................

al4

Appendix D,
Plea Agreement (excerpts)..............

al5

Appendix E,
Transcript of Plea Of Guilty (Rule 11 Plea
al8
Colloquy)
Appendix F,
USCIS/uscis.gov: Summary of Process for the
a31
K-l Fiance/Fiancee program

